No. 19-1189

IN THE

Supreme Court of the United States
B.P. P.L.C., ET AL., PETITIONERS
v.
MAYOR & CITY COUNCIL OF BALTIMORE, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEAL
FOR THE FOURTH CIRCUIT
SUPPLEMENTAL BRIEF OF RESPONDENT
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court
and that on this 22nd day of July, 2020, I caused a copy of the Supplemental Brief of
Respondent to be served by Electronic Mail on the counsel identified below. All
parties to be served have been served.

/s/ Victor M. Sher
Victor M. Sher

1

Service List
Theodore J. Boutrous, Jr.
GIBSON, DUNN & CRUTCHER LLP
333 South Grand St.
Los Angeles, CA 90071
Email: tboutrous@gibsondunn.com

Kannon K. Shanmugam
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K St., NW
Washington, DC 20006
Email: kshanmugam@paulweiss.com

Joshua Lipshutz
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Ave., NW
Washington, DC 20036
Email: jlipshutz@gbsondunn.com

Theodore V. Wells, Jr.
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019-6064
Email: twells@paulweiss.com

Anne Champion
GIBSON DUNN & CRUTCHER LLP
200 Park Avenue
Counsel for Petitioners Exxon Mobil
New York, NY 10166
Corporation and ExxonMobil Oil
Email: achampion@gibsondunn.com
Corporation
Counsel
for
Petitioners
Chevron
Corporation and Chevron U.S.A., Inc.
David Frederick
KELLOGG HANSEN TODD FIGEL
& FREDERICK PLLC
1615 M Street, N.W., Suite 400
Washington, D.C. 20036
Email: dfrederick@kellogghansen.com

Kathleen Taylor Sooy
CROWELL & MORING LLP
1001 Pennsylvania Avenue NW
Washington, DC 20004-2595
Email: ksooy@crowell.com

Jerome C. Roth
MUNGER TOLLES & OLSON LLP
560 Mission St., 27th Floor
San Francisco, CA 94105
Email: jerome.roth@mto.com

Counsel for Petitioners CNX Resources
Corporation, CONSOL Energy Inc., and
CONSOL Marin Terminals LLC

Daniel P. Collins
MUNGER TOLLES & OLSON LLP
350 South Grand Ave., 50th Floor
Los Angeles, CA 90071
Email: daniel.collins@mto.com
Counsel for Petitioners Shell Oil
Company and Royal Dutch Shell plc

2

Philip H. Curtis
ARNOLD & PORTER KAYE
SCHOLER LLP
250 West 55th Street
New York, NY 10019-9710
Email: Philip.Curtis@apks.com

Nathan P. Eimer
EIMER STAHL LLP
224 South Michigan Avenue, Suite 1100
Chicago, IL 60604
Email: neimer@eimerstahl.com
Counsel for Petitioner CITGO Petroleum
Corporation

Matthew T. Heartney
ARNOLD & PORTER KAYE
SCHOLER LLP
777 South Figueroa Street, 44th Floor
Los Angeles, CA 90017-5844
Email: Matthew.Heartney@aporter.com
Counsel for Petitioners BP p.l.c., BP
America Inc., and BP Products North
America Inc.
Michelle N. Lipkowitz
SAUL EWING ARNSTEIN & LEHR
LLP
500 East Pratt St., Ste. 900
Baltimore, Maryland 21202-3133
Email: michelle.lipkowitz@saul.com

Megan Berge
BAKER BOTTS LLP
1299 Pennsylvania Ave, NW
Washington, D.C. 20004
Email: Megan.berge@bakerbotts.com
J. Scott Janoe
BAKER BOTTS LLP
910 Louisiana Street
Houston, Texas 77002
Email: scott.janoe@bakerbotts.com

Sean C. Grimsley
BARTLIT BECK LLP
1801 Wewatta Street, Suite 1200
Denver, CO 80202
Email: sean.grimsley@bartlit-beck.com

Counsel for Petitioner Hess Corporation
Steven M. Bauer
LATHAM & WATKINS LLP
505 Montgomery Street, Suite 2000
San Francisco, CA 94111-6538
Email: steven.bauer@lw.com
Matthew J. Peters
LATHAM & WATKINS LLP
555 11th Street, NW, Ste. 1000
Washington, DC 20004
Email: matthew.peters@lw.com
Counsel for Petitioners ConocoPhillips
and ConocoPhillips Company
3

Shannon S. Broome
HUNTON ANDREWS KURTH LLP
50 California Street, Suite 1700
San Francisco, CA 94111
Email: sbroome@hunton.com

Steven M. Bauer
LATHAM & WATKINS LLP
505 Montgomery Street, Suite 2000
San Francisco, CA 94111-6538
Email: steven.bauer@lw.com

Shawn Regan
HUNTON ANDREWS KURTH LLP
200 Park Ave., 52nd Floor
New York, NY 10166
Email: sregan@huntonak.com

Matthew J. Peters
LATHAM & WATKINS LLP
555 11th Street, NW, Ste. 1000
Washington, DC 20004
Email: matthew.peters@lw.com

Ann Marie Mortimer
HUNTON ANDREWS KURTH LLP
550 South Hope St, Ste. 2000
Los Angeles, CA 90071
Email: amortimer@huntonak.com

Counsel for Petitioner Phillips 66

Counsel for Petitioners Marathon
Petroleum Corp. and Speedway LLC

4

